  DEPARTMENT OF HOMELAND SECURITY
           Office of Inspector General




    Audit of Louisiana State Grant Management
        Award, Public Assistance Program




DD-08-01                            January 2008
                         0
                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Central Regional Office
                                                           Office of Emergency Management Oversight
                                                           3900 Karina Street, Room 224
                                                           Denton, Texas 76208




                                        January 17, 2008

MEMORANDUM FOR:              James W. Stark, Director
                             FEMA Louisiana Transitional Recovery Office



FROM:                        Tonda L. Hadley, Director
                             Central Regional Office

SUBJECT:                     Audit of Louisiana State Grant Management
                              Award, Public Assistance Program
                             FEMA Disaster Number DR-1603-LA
                             Audit Report DD-08-01

We audited Federal Emergency Management Agency (FEMA) Public Assistance (PA) funds
awarded to the Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
(State) for managing disaster work related to Hurricanes Katrina and Rita. As of June 2007, FEMA
had awarded the State about $59.2 million for PA grant management activities, $57 million of which
was awarded under Project Worksheet (PW) 337. With the funds awarded under this PW, the State
contracted with James Lee Witt and Associates (Witt) to perform the work.

Our objective was to determine the effectiveness of the grant management contract and whether the
contract award and costs billed were eligible under applicable laws, regulations, and guidelines. We
conducted the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. We interviewed State and FEMA
officials and contractor personnel; reviewed judgmentally selected samples (generally based on
dollar value) of cost documentation to support contractor invoices for the period September 2005
through July 2006; and performed other procedures considered necessary to accomplish our
objective. We reviewed the State’s internal controls related to contract monitoring and documenting
contract costs. We also reviewed the State’s policies and procedures for awarding contracts.

                                         BACKGROUND

Hurricane Katrina hit the State of Louisiana on August 29, 2005. The storm surge breached the New
Orleans levee system at multiple points, leaving 80% of the city submerged, thousands of victims
requiring rescue, and thousands more scattered to shelters around the country. Three weeks later,
Hurricane Rita re-flooded much of the area, increasing demands on an already stressed response and
recovery effort by all levels of government. The devastation caused by these two
hurricanes presented unprecedented rebuilding challenges to the State of Louisiana because all of its
64 parishes were affected and many communities were completely destroyed.

FEMA’s PA Program provides assistance to states, local governments, and certain nonprofit
organizations to repair damages resulting from major disasters or emergencies declared by the
President. The PA Program is administered through a coordinated effort between FEMA, the state
(grantee), and the subgrantees. While all three entities must work together to meet the overall
objective of quick, effective program delivery, each has a different role.

FEMA and the state share responsibility for making PA funds available to subgrantees. FEMA uses
a PW for each project to record the scope of eligible work, estimated or actual costs necessary to
complete the work, and special considerations associated with the project. The PW serves as the
basis for federal funding. Once FEMA approves a PW, it makes the federal share of the approved
amount available to the state. These obligated funds are available to the state via electronic transfer,
but reside in a federal account until the state approves funding to eligible subgrantees.

The state is responsible for notifying the subgrantee that funds are available, and for disbursing those
funds to the subgrantees. The state is also responsible for providing technical advice and assistance
to eligible subgrantees, ensuring that all potential subgrantees are aware of the available assistance
programs, providing support for damage assessment operations, and submitting the necessary
paperwork for grant awards.

FEMA provides three types of financial assistance to states for managing and administering FEMA
grants. 1 First, a State Management Grant covers the ordinary or regular costs directly associated
with program administration. Second, a statutory administrative allowance covers “extraordinary”
direct costs to formulate PWs for small and large projects, to validate small projects, to prepare final
inspection reports, project applications, final audits, and to make related field inspections by state
employees. 2 Eligible costs include overtime pay and per diem and travel expenses. Finally, states
may also claim the indirect costs of administering disaster programs according to applicable federal
regulations. Current FEMA policies allow only these three types of costs under the statutory
administrative allowance.

As of June 2007, FEMA had approved seven PWs under Louisiana’s State Management Grant
totaling about $59 million for Hurricanes Katrina and Rita (see Appendix A). Of that amount, $57
million, or about 96%, was to fund the Witt contract (PW 337). Also, as of June 2007, FEMA
estimated that about $6.3 billion in PA funds were needed in Louisiana to repair damages from
Hurricanes Katrina and Rita. The State’s statutory administrative allowance based on that amount is
about $31.5 million. The State also plans to request reimbursement for indirect costs related to the
Hurricanes.



1
 44 CFR 206.228(a)(2) and (3) and (b)
2
 The State’s statutory administrative allowance is based on the federal share of total assistance provided to its
subgrantees as follows: 3% for the first $100,000 of net eligible costs, 2% for the next $900,000, 1% for the next
$4,000,000, and ½% of costs over $5,000,000 (44 CFR 206.228(a)(2)).



                                                            2
Before Hurricane Katrina, the State had an authorized staff of 44 to manage disasters; however, due
to vacancies and deployments, only 39 personnel were on-hand at the time of the storm. Only 5 of
those 39 personnel were dedicated to the PA Program. The State has since increased its authorized
disaster management staff to 418 positions (300 of those are temporary positions). As of June 2007,
the State had 116 personnel dedicated to PA. The State continues to fill vacant positions, but even at
the full staffing level, it needs assistance from contractors to manage its disaster grants.

                                     RESULTS OF REVIEW

On September 15, 2005, the State awarded the Witt contract without full competition because
Hurricane Katrina created an unprecedented emergency situation. However, the contract
transitioned from being used in an emergency to use for long-term recovery. The State’s continued
longer-term use of this contract was inappropriate because full competition is needed to ensure
reasonable costs and because the contract’s terms and conditions were too brief to ensure contractor
performance. Further, the State did not adequately monitor the Witt contract. As a result, State
officials were not fully aware of what the contractor was doing or whether billed costs were
appropriate and reasonable.

We discussed these issues with the State in December 2006; and the State issued a request for
proposals (RFP) for a new contract in January 2007. In March 2007, we discussed the same issues
with the Director of FEMA’s Louisiana Transitional Recovery Office (TRO). The TRO Director
instructed the State to monitor the contractor’s activities and costs and ensure that the new contract
contained appropriate terms and conditions. In April 2007, the State awarded a new contract for
state grant management to GlobalOptions Group, Inc., which announced in March 2006 that it had
acquired James Lee Witt and Associates. However, due to an internal State review, the new contract
was not effective until September 1, 2007.

Also of concern was the quality of service Witt provided to the State’s subgrantees. PW 337
required Witt to provide grants managers and on-site project managers; prepare PWs, project
applications, and reports; and conduct field inspections. However, Witt did not provide enough
trained personnel to accomplish these tasks or to oversee subgrantee activities. The majority of
subgrantees we interviewed said they were not satisfied with the level of support provided by Witt
personnel. Further, the results of audits we conducted of seven Louisiana subgrantees demonstrate
they did not follow contracting regulations and accurately account for disaster costs. More effective
oversight by the State or the State’s contractor might have prevented these problems. We applaud
FEMA’s and the State’s efforts to correct the contractual deficiencies we identified in the original
Witt contract. However, if the State continues to rely on contractors for its grant management
functions, it must take steps to improve the quality of service its contractors provide to its
subgrantees.

                                    PROCUREMENT ISSUES

On September 3, 2005, the Governor of Louisiana suspended the normal state procurement
procedures by issuing Executive Order KBB 2005-27, “Emergency Procedures for Conducting State
Business,” authorizing state officials to use “their best judgment in purchasing necessary goods and
services to satisfy the situation.” The State interviewed two companies interested in managing the




                                                  3
PA Program before awarding the contract to Witt. On October 18, 2005, the Governor of Louisiana
issued Executive Order KBB 05-66, which added some structure back to state contracting. On
June 2, 2006, the Governor issued Executive Order KBB 06-22 establishing a return to normal
procurement procedures, except where strict compliance would have a detrimental effect on
recovery efforts. More than a year after this Executive Order and almost 2 years after Hurricane
Katrina struck, the State continued to use the Witt contract awarded in September 2005 under
emergency conditions. Considering the contract’s scope and the costs involved, State officials
should have replaced it with a competitively awarded contract as soon as possible to save costs and
better ensure contractor performance.

Contract Terms and Conditions

The Witt contract was a time-and-materials contract without a ceiling and with terms and conditions
too brief for the magnitude of the work to be performed under this project. FEMA initially estimated
the State Grant Management Award at $29 million for 9 months of contract service. The State
continued to use the Witt contract, and FEMA-approved funding reached $57 million by June 2007.
The contract’s description of deliverables was vague and the scope of work (SOW) too brief
(1 page). The contract required the contractor to provide “a team of State Public Assistance
Specialist[s]. The Specialist is a Federal Emergency Management Agency (FEMA) program expert
who serves as the State's subgrantee's customer service representative on Public Assistance (PA)
Program matters and assists with the processing of the grantee and subgrantee's projects.” However,
the contract did not specify what constitutes an “expert” or describe the amount of training,
education, or experience required for the various categories of personnel listed in the rate schedule.
The contract also did not say how much markup the contractor could add to the cost of personnel
provided by a third party (see example of contractor profit on grants managers below under the
caption Expertise of Contract Employees).

The contract stated that written task orders would be issued with detailed SOWs and the State and
contractor would jointly agree in writing to the SOW, budget, and deliverables. The State eventually
wrote three task orders, but they were undated. The task orders improved the description of services
required, but were still too vague. For example, only one task order mentioned “deliverables,”
which were described as “provide advice and guidance,” “deliver training materials,” and “prepare a
plan.”

Neither the task orders nor the SOWs mentioned debris monitoring, for which Witt was paid more
than $10.4 million from October 2005 through July 2006. State Quality Assurance/Quality Control
personnel informed State emergency management personnel in May 2006 that debris monitoring was
not in the scope of the contract. The State amended the contract’s rate schedule to include a
category for debris monitors, but did not amend the contract to describe what the debris monitors
were to accomplish. Subgrantees had the option of managing their debris removal operations or
allowing the U.S. Army Corps of Engineers (Corps) contractors to remove debris through FEMA
mission assignments. The Corps removed about 56% of the estimated debris in Louisiana and
provided their own debris monitors. Some of the subgrantees that managed debris removal
operations hired their own contractors to monitor those operations. Therefore, the contract should
have described the scope of Witt’s debris monitoring activities so the State and FEMA could assess
whether the costs were necessary and reasonable.




                                                  4
Contract Monitoring

The State’s monitoring of the Witt contract was not sufficient to ensure effective contractor
performance. Witt provided activity reports on a regular basis, but State personnel told us they did
not keep any documentation showing that they reviewed the activity reports or took any action based
on the results of any reviews. The State did review Witt’s invoices to verify that each charge was
supported by a document; however, this review did not extend to questioning the appropriateness of
the charges. We asked State employees about several unusual items we noted during a review of
two invoices totaling about $3.5 million that had been approved and paid. These items totaled about
$13,000 and included a first class airplane ticket, a chartered airplane used twice, and costs to send a
Witt employee to an out-of-state conference. The State employee told us they sometimes questioned
such items, but did not maintain documentation of the items questioned or how the issues were
resolved.

Generally, the costs Witt billed were eligible under applicable laws, regulations, and guidelines. We
reviewed a judgmentally selected sample of contractor invoices totaling about $25 million from the
period October 2005 through July 2006 and identified payment errors (such as math errors and
duplicate payments) totaling $510,386, or about 2% of the amount reviewed. State officials
corrected these errors when we brought them to their attention. Also, in July 2007, State officials
told us they changed their procedures and now maintain documentation and follow up on items
billed that appear questionable.

In December 2006, we discussed with State officials our concerns about the continued use of the
Witt contract, and, in January 2007, the State issued a request for proposals for a new contract. On
March 13, 2007, we discussed the issues of contract award, contract terms and conditions, and
contract monitoring with the TRO Director. On March 16, 2007, the TRO Director issued a letter to
the State that included the following statements:

           1. The current Witt contract must be replaced as soon as is reasonably
              feasible with a contract that is competitively bid in accordance with State
              procurement laws and regulations.

           2. FEMA's and the IG's concern is that the fundamental flaws in the existing
              contract may have been carried forward in the new RFP. If the State
              intends to supplant the Witt contract or use a new contract for grant
              management activities related to this disaster, 1603-DR-LA, it is
              imperative that the State ensures the RFP and contract clearly correct all
              flaws identified by the Inspector General with regard to the existing Witt
              contract. Specifically, these issues must be clearly addressed: a detailed
              scope of work, a specific list of required deliverables, and the
              qualifications of personnel to be provided (education, training and
              experience). FEMA would strongly advise against the award of any
              proposed grants management contract pending a review to ensure that all
              issues have been addressed. Failure to address these issues may imperil
              FEMA funding for State grant management contracts.




                                                   5
               3. Any new or replacement contract for grants management must include a
                  plan for the State to monitor diligently all grant management contract
                  activities and costs to ensure that the contractor provides the required
                  services and deliverables, and that contract billings are accurate,
                  supported, and for eligible cost items.

We met with State officials again in April 2007 and discussed the contracting issues included in the
TRO Director’s letter. State officials told us they did not agree with some of the letter’s content, but
did agree with its recommendations. They also said they had received and evaluated three responses
to its January 2007 RFP; had tentatively selected one of the three; and were drafting a new contract.
In July 2007, State officials provided us a copy of the draft contract for our review. The draft
contract contained hourly rates less than the previous contract, a more detailed SOW, and
qualifications of personnel to be provided. On September 1, 2007, the State’s new contract with
GlobalOptions Group, Inc. became effective. State officials told us that Witt had agreed to apply the
reduced hourly rates retroactively to all billings after April 1, 2007. Although the State has taken
steps to improve the contract, it must effectively monitor the contractor’s activities to ensure the
contractor is providing the State the necessary support to effectively manage the PA Program.

                                              QUALITY OF SERVICE

The State should take additional steps to improve the effectiveness of its grant management.
According to 44 CFR 13.37(a)(2), the State is required to ensure that subgrantees are aware of
requirements imposed on them by federal regulations. Further, 44 CFR 13.40(a) requires the State to
manage the day-to-day operations of subgrant activity and monitor subgrant activity to ensure
compliance with applicable federal requirements.

More and better-trained contract employees are needed to improve the effectiveness of the State’s
grant management. We identified problems with the expertise of contract employees and learned
that many subgrantees were not satisfied with the level of support they have been receiving. Further,
the results of our prior audits indicate that the State’s grant management should be more effective.

Expertise of Contract Employees

Contractor employees may not have had sufficient experience and training to qualify them as
“experts.” The Witt contract stated that the contractor would provide State PA Specialists, who are
FEMA program experts to be the State subgrantees’ customer service representatives. However,
Witt officials often could not provide evidence that its employees and subcontractors had the
requisite qualifications to be classified as experts.

In June 2006, Witt had 57 direct employees and 77 debris monitors hired through subcontractors. 3
Witt provided resumes for 51 of its direct employees. We reviewed all of the resumes provided and
determined that 10 of the 51 resumes did not present evidence of the experience or education needed



3
    As of June 2007, Witt was using 94 personnel for its contract with the State.



                                                              6
to perform the jobs for which they were hired. Further, Witt provided a resume for only 1 of the
77 debris monitors; therefore, we could not assess their qualifications.

In addition, from February 2006 through July 2006, Witt billed the State about $4.1 million for
76 grants managers obtained through a subcontract with a temporary employment agency. Witt paid
the temporary agency about $1.8 million for the grants managers. Witt later refunded about
$267,000 to the State because the State had determined that the grants managers lacked expertise.
We interviewed nine of Witt’s grants managers, all of whom told us they had no prior experience in
performing grants management work. 4

Results of Subgrantee Interviews

We interviewed officials from 16 of the 19 subgrantees that received the largest amount of PA grant
funding. These 16 subgrantees have requested more than $2.5 billion in federal PA grant assistance.
We asked each subgrantee questions about grant administration and their interaction with Witt
employees serving as State PA Coordinators (PAC). According to the State, all PAC positions were
filled using Witt personnel. Overall, the 16 subgrantees responded negatively to 55% of our
questions, which indicated they were not receiving an appropriate level of services to support their
subgrant activities. For example:

    •   11 of the 16 subgrantees were not satisfied with the overall support provided by Witt
        personnel;

    •   7 were rarely or never in contact with Witt personnel;

    •   8 said Witt personnel had never discussed types of eligible contracts or discussed supporting
        documentation requirements;

    •   11 said Witt personnel never discussed emergency work eligibility; and

    •   10 said Witt personnel did not explain their role at kickoff meetings.

Of the 16 subgrantees interviewed, 7 had debris removal operations; 5 of the 7 managed their own
debris removal and 2 used the U.S. Army Corps of Engineers. We asked these seven subgrantees
additional questions about their interaction with State debris removal monitors, which Witt provided.
Generally, the subgrantees did not know what functions the State debris monitors performed. Only
one subgrantee said that State debris monitors had provided written or verbal guidance to them; and
only one subgrantee knew whether State debris monitors were providing services such as checking
truck certifications, verifying the accuracy of load tickets, and overseeing subgrantee debris
monitors.

The need for interaction between Witt personnel and the subgrantees, as well as subgrantee
dissatisfaction with grant management, indicates that Witt personnel did not adequately manage the

4
  In December 2006, during an unannounced visit to Witt’s worksite in Baton Rouge, Louisiana, we interviewed the nine
grants managers who were present that day.



                                                         7
day-to-day operations of subgrant activities and did not provide enough services to ensure
subgrantees were aware of requirements imposed on them by federal regulations. Therefore, the
State should improve the quality of services provided to subgrantees whether performed by State or
State contractor personnel.

Office of Inspector General Audits of Louisiana Subgrantees

As part of our role in oversight of disaster assistance, we audit subgrant activities. Since Hurricane
Katrina, we have issued seven audit reports on subgrant activities in Louisiana that identified areas
where the subgrantee did not follow federal regulations and FEMA guidelines on critical issues that
could result in the subgrantee either having to return a portion of federal funds or not receiving any
federal funding (see Appendix B). The issues identified included noncompliance with federal
procurement standards, not maintaining records by project, claiming ineligible costs, retaining
interest earned on advance funds, lack of documentation to support claimed costs, and inadequate
debris removal monitoring. The results of these audits corroborate the need for the State to provide
increased subgrantee oversight.

                         CONCLUSIONS AND RECOMMENDATIONS

The magnitude of damages caused by Hurricanes Katrina and Rita poses an unprecedented challenge
for the State to effectively manage its PA Program. The State has relied largely on the Witt contract
to meet that challenge, but it needs more and better resources to improve the effectiveness of its
grant management activities. The State has awarded a new contract with reduced hourly rates and
better terms and conditions. However, the State should take additional steps to improve the quality
of services provided to the nearly 1,100 subgrantees devastated by the hurricanes.

We cannot conclude that another contractor would have performed better than Witt. The shortage of
qualified personnel in Louisiana after the 2005 hurricanes affected almost everyone, including
FEMA, the State, contractors, and subgrantees. Both FEMA and the State told us that the quality of
Witt’s personnel has improved over the last 2 years. However, many subgrantees do not effectively
manage their public assistance projects or prepare adequately supported claims. They need
additional support and oversight by the State.

Therefore, we recommend that the Director, FEMA Louisiana TRO:

   1. Assist the State in determining the number of qualified personnel needed to manage the PA
      Program and in formulating a plan for acquiring or contracting for the personnel; and

   2. Require the State to develop and document a plan for monitoring grant management
      contractors’ activities and costs.




                                                   8
MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR GENERAL ANALYSIS

The Director, FEMA Louisiana TRO, agreed with our audit findings and recommendations and
provided detailed action plans for implementing the two recommendations. Therefore, we consider
the recommendations to be resolved and will close them when FEMA completes its planned actions.
See Appendix C for the complete text of comments received from the TRO.




                                               9
                                                                                 Appendix A


                            Louisiana Grant Management Costs
                               Hurricanes Katrina and Rita
                                        June 2007

PW                                     Purpose                                   Amount


        Hurricane Katrina

 337    Witt Contract                                                            $56,955,329
        Force account labor for state full-time permanent employees and full-
        time temporary employees, contract costs, and force account material
16202   costs                                                                       986,416
        Reimbursement of state management costs for regular full-time
13942   employees                                                                   440,723
 3445   Acquire a web-based software package for management of PA Grants            330,040
        Acquire a media consultant for print, television, local, and federal
 850    communication                                                               182,850
        Purchase a dedicated server for the above-purchased software to manage
7410    the PA Grants                                                                61,718

                                                                Katrina Total    $58,957,076

        Hurricane Rita

        Reimbursement of state management costs for regular full-time
4169    employees                                                                   220,339

                                                                    Rita Total     $220,339

                                                       Katrina and Rita Total    $59,177,415




                                             10
                                                                                          Appendix B



          Grant Management Findings in OIG Reports Issued for Hurricane Katrina


1. Interim Review of Hurricane Katrina Activities – St. Bernard Parish, Louisiana (GC-LA-06-54,
   dated September 28, 2006) contained the following grant management issues where the Parish
   did not:

   •   Meet federal requirements to maintain records for each approved project resulting in
       ineligible expenditures of more than $2.6 million;
   •   Follow federal procurement standards on more than $18.8 million of contract actions;
   •   Account for capital purchases totaling $2,490,000.

2. Interim Review of Hurricane Katrina Activities – City of New Orleans, Louisiana (GC-LA-06-
   56, dated September 29, 2006) contained the following grant management issues where the City
   did not:

   •   Meet federal requirements to maintain records for each approved project. The City had
       received awards totaling more than $130.2 million;
   •   Follow federal procurement standards on more than $92.9 million of contract actions;
   •   Promptly expend expedited payments, earning $860,110 of interest on unexpended funds.

3. St. Bernard Parish, Louisiana’s Management of [FEMA Public Assistance] Grants for the
   Removal of Debris from Hurricane Katrina (DD-07-02, dated November 30, 2006) contained the
   following grant management issues where the Parish did not:

   •   Meet federal requirements for cost and price analysis.
   •   Cut trees according to eligibility requirements resulting in $209,115 being spent for ineligible
       cuts.
   •   Control costs for debris monitoring resulting in unreasonable costs of about $84,600.
   •   Establish adequate internal controls for load ticket processing and accuracy in measuring
       debris hauled.

4. Interim Review of Hurricane Katrina Activities – Plaquemines Parish Sheriff’s Office, Louisiana
   (DD-07-05, dated February 6, 2007) contained the following grant management issues where the
   Sheriff’s Office did not:

   •   Meet federal requirements to maintain records for each approved project. The Sheriff’s
       Office had PWs totaling $36 million.
   •   Maintain adequate documentation to support about $3.8 million in claimed overtime and
       equipment usage charges.
   •   Follow federal procurement standards resulting in the questioning of $1,054,000 for trailers
       purchased but not used.

5. Interim Review of Hurricane Katrina Activities – City of Kenner, Louisiana (DD-07-08, dated
   March 2, 2007) contained the following grant management issues where the City did not:


                                                 11
                                                                                         Appendix B



   •   Meet federal requirements to maintain records for each approved project. The City had PWs
       totaling $26 million.
   •   Follow federal procurement standards in awarding contracts. This resulted in a non-
       competitive contract being awarded for travel trailers in the amount of about $1.4 million.
   •   Maintain adequate documentation to support about $679,150 in various claimed costs.

6. Review of Hurricane Katrina Debris Removal Activities, St. Tammany Parish, Louisiana (DD-
   07-10, dated August 20, 2007) contained the following grant management issues where the
   Parish did not:

   •   Obtain effective performance from a debris monitoring company resulting in questioned
       costs of about $445,000.
   •   Follow federal procurement standards in amending a contract resulting in a contract
       originally awarded to cost about $500,000 being amended to cost about $130 million.
   •   Fully utilize the administrative allowance provided by FEMA.
   •   Timely remit interest earned on $2.5 million provided to the Parish in excess of its funding
       needs.

7. Review of Hurricane Katrina Debris Removal Activities, Washington Parish, Louisiana (DD-07-
   11, dated August 20, 2007) contained the following grant management issues where the Parish
   did not:

   •   Maintain adequate documentation to support $743,700 claimed for right-of-way debris
       removal.
   •   Question its debris-monitoring contractor regarding $613,325 of improper charges.
   •   Maintain adequate documentation to support $741,086 claimed for tree stump removals.
   •   Adhere to FEMA’s approved rates resulting in the disallowance of $18,696,943 in claimed
       costs.




                                                 12
     Appendix C




13
     Appendix C




14
     Appendix C




15
     Appendix C




16
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG website at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations:

    •   Call our Hotline at (800) 323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
